June 4, 2008

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Flats Sequencing System: Production First
         Article Testing Readiness and Quality (Report Number DA-AR-08-006)

This report presents the results of our self-initiated audit of the Flats Sequencing System
(FSS) (Project Number 08YG007DA000). With a xxxxxxxxxxxx budget, FSS is currently
the largest Postal Service mail automation investment. FSS is expected to generate
operational savings of between $593 million and $677 million annually. Our objectives
were to assess progress towards statement of work (SOW) performance criteria and
compliance with the SOW’s Section M (Test & Quality) requirements. Based on the FSS
program schedule, the U.S. Postal Service Office of Inspector General (OIG) is conducting
the audit in three phases to cover readiness and quality leading to the production First
Article Test (FAT); the outcome of the preproduction System Acceptance Test (SAT)1; and
production FAT. This audit report focuses on readiness and quality leading to production
FAT.2 Click here or go to Appendix A for additional information about this audit.

Conclusion

To enhance FSS program success, the Postal Service needs to focus greater attention on
several areas to better prepare for production FAT and improve production quality.
Specifically:

    •    Workload – Mail volumes and the number of mail zones processed at the FSS test
         site are below the assumptions made in the Decision Analysis Report (DAR). This
         prevents vigorous system testing, and increases the risk of system performance
         problems and financial returns lower than expected.

    •    FAT Schedule – The FSS program schedule does not allow time for the results of
         the in-plant FAT to be evaluated before field FAT begins.

    •    Critical Deliverables – Delays in the following SOW deliverables may affect system
         maintainability and performance.

             o        Preliminary Production Baseline Technical Data Package (PPBTDP)

1
 SAT – The FSS preproduction SAT consists of a 2-week pretest period followed by 3 weeks of formal testing.
2
 FAT – Equipment purchased for the first time is placed and tested for functionality, quality, and compliance with
contract specifications. After first article acceptance, the supplier begins production deployment.
Flats Sequencing System:                                                        DA-AR-08-006
 Production First Article Testing Readiness and Quality


            o       Maintenance Diagnostic and Support System (MDSS)
            o       Program Control System (PCS)

    •   Production Quality Control – The supplier’s production quality control needs
        improvement to ensure that systems are built to provide reliable and consistent
        performance.

Click here or go to Appendix B for a detailed analysis of these issues.

We recommend the Vice President, Engineering:

1. Ensure the Flats Sequencing System’s preproduction system can process seven mail
   zones for a reasonable period to meet volume requirements in the Decision Analysis
   Report before First Article Testing begins.

2. Reassess forecasted mail volumes at sites listed on the current deployment schedule.
   If mail volume is below expectations, identify the impact of lower mail volumes on
   savings projected in the Decision Analysis Report and reexamine the number of Flats
   Sequencing Systems currently scheduled for deployment.

3. Revise the First Article Test schedule to allow sufficient time to review in-plant test
   results before field First Article Testing begins. The additional time will allow
   implementation and testing of any design changes needed.

4. Develop a recovery schedule to ensure the Preliminary Production Baseline Technical
   Data Package will be available before the production First Article Test begins.

5. In coordination with the supplier, ensure that the initial Maintenance Diagnostic and
   Support System and the Program Control System functionalities are available for First
   Article Testing and develop a schedule for future design releases.

6. Validate the supplier’s ability to provide qualified personnel to support Flats
   Sequencing Systems on all mail processing tours, if the supplier is required to provide
   on-site support.

7. Ensure that the supplier follows the quality control plan and the configuration control
   process and validates that the first five production systems are built to the same
   drawing configuration.




                                                      2
Flats Sequencing System:                                                         DA-AR-08-006
 Production First Article Testing Readiness and Quality


Management’s Comments

Management generally agreed with the findings and recommendations. Management
stated, in general, they had previously identified the findings and are actively addressing
them. However, management did not agree to revise the FAT schedule (recommendation
3). Management acknowledged that the finding is a good practice and one that their
programs normally follow, but stated that in this case, their current schedule maximizes
the opportunity to capture the savings identified in the DAR. Because of their actions to
date, management considers recommendations 2 through 5 and 7 closed.

Click here or go to Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments generally responsive to the
recommendations, and the corrective actions should resolve the issues identified.
However, the OIG will keep recommendations 4, 5, and 7 open until management’s
corrective actions are completed. Specifically:

    •   Recommendation 4.

        Management stated the delay of the Integrated Tray Converter (ITC) will have an
        impact on the release of the PPBTDP, and they have taken actions to ensure its
        delivery prior to FAT. Because a large number of drawings for other FSS
        assemblies have not been approved, the OIG will keep recommendation 4 open
        until the program office has provided the supplier with written notification that the
        PPBTDP has been accepted.

    •   Recommendation 5.

        Management stated that their plan includes the initial functionality for PCS and
        MDSS that will be available for the First Article In-Plant Test. The OIG will keep
        recommendation 5 open until the Postal Service tests and accepts the first editions
        of software for the PCS and MDSS during FAT testing.

    •   Recommendation 7.

        Management stated that prior to acceptance of the first five systems, the Postal
        Service and the supplier will review each nonconforming item for each system and
        determine its disposition. The OIG will keep recommendation 7 open until the
        Postal Service provides written confirmation that all five production systems are
        built to the same drawing configuration.

The OIG considers recommendations 1, 4, 5, 6, and 7 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation




                                                      3
Flats Sequencing System:                                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality


when corrective actions are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Brent Raney
    Aron Sanchez
    Don Crone
    Katherine S. Banks




                                                      4
Flats Sequencing System:                                                                          DA-AR-08-006
 Production First Article Testing Readiness and Quality


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In December 2006, the Postal Service approved a xxxxxxxxxxxx xxxxx x xxx to develop,
purchase, and deploy 100 FSS machines at 33 sites. xxx xxx xxxxxx xxxx xxx xxx xxxx
xxxxxxx xxxxx3 xxxx xxxxxxxxxxx xxxxxxxx xx xxx xxxxxxxxx xxxx xxxxxxx xxxxxxx xxxxxx
xxx xxx xxx xxxxxxxx xxxx xxxxxxx xxxxxxx xxxx. xx xxxxxxxx, xxx xxx xxxx xxxxxxx x
xxxxxxxxxxx xxxxxxx xx xxx xxxxx xxxx xxxxxxxxx xxxxxx xx xxxxxxxx xxxxx xx xxxxxxx
xxxxxxxx xxxxxxx xxx xxxxx. The mail processed by the FSS will arrive at the delivery unit
in walk sequence order, ready for delivery by the carrier with no additional mail movement
or manual sorting required. Savings should result when delivery units can eliminate the
requirement for mail carriers to manually case flat mail. A small reduction in clerks’
workhours at delivery units should also result, since employees would no longer need to
move FSS-processed mail to the carrier casing areas.

OBJECTIVES, SCOPE, METHODOLOGY

Our audit objectives were to assess progress towards SOW performance criteria and
compliance with the SOW’s Section M (Test & Quality) requirements. This audit report
focuses on production FAT readiness and production quality. To accomplish our
objectives, we interviewed Postal Service officials and supplier personnel and reviewed
the DAR program schedule and SOW performance requirements. We also attended the
FSS monthly technical review meetings and visited the Dulles Processing and Distribution
Center (P&DC) to observe the FSS preproduction system in operation.

We conducted this performance audit from February through June 2008 in accordance
with generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management officials on April 29, 2008, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued one audit report related to FSS risk management, Flat Sequencing
System Risk Management (Report Number DA-AR-07-003, dated July 31, 2007). The
audit determined that Postal Service Engineering needed to focus greater attention on risk
management standards to ensure that the significant risks associated with deployment of
the FSS were adequately identified and managed.

3
 Flats are mailpieces that exceed one of the maximum dimensions of letter-size mail. Large envelopes, newspapers,
catalogs, circulars, and magazines are examples of flats.




                                                         5
Flats Sequencing System:                                                                                  DA-AR-08-006
 Production First Article Testing Readiness and Quality


                                     APPENDIX B: DETAILED ANALYSIS

Workload

Flat mail volumes and the number of mail zones processed at the FSS test site4 were
below DAR assumptions. Before preproduction testing began, the FSS test site was
processing approximately 44,000 flat mailpieces daily for two of the seven mail zones. xx
xxxxxxx xxx xxx xxxxxxxxxxx xxxx xxxxx xx, xxx xxx xxxx xxxx xx xxxxxxx xxx,xxx xxxxxx
xxxxx—xx xxxxxxx xx xxxx xxxxxx xxxxxx xxx xxxx xx xxx xxxx xxxxxx xxxxx xxxx xxxxx.
Because volumes had declined, the test site could not meet assumptions in the DAR for
flat mail volumes. Smaller mail volumes than expected would reduce the forecasted DAR
savings and would potentially impact the number of FSS machines needed. In addition,
the test site could not process more than two mail zones because of technical problems in
machine design. Specifically, the Integrated Tray Converter (ITC),5 a key component of
the machine, performed below expectations. The production FSS should be tested using
mail volumes and mail zones reasonably within the DAR assumptions to determine
whether it can achieve the required results.

                                Table 1. Key Program Performance Criteria




                                                         Redacted




First Article Test Schedule

The FSS program schedule does not allow time for the results of the in-plant FAT to be
evaluated before the field FAT begins. The Postal Service typically needs at least 2
weeks to implement and test any system design changes resulting from the in-plant FAT
results. Because Postal Service management wanted to deploy the FSS equipment as
quickly as possible to capture savings, they reduced the time to evaluate the in-plant FAT.
This limits both the Postal Service’s and the supplier’s ability to make system design
changes before beginning field FAT.

4
    The FSS test site is located at the Dulles P&DC in the Capital Metro Area.
5
    ITC – After first-pass processing, the ITC moves mail to feeder trays for delivery point processing (second pass).




                                                               6
Flats Sequencing System:                                                                               DA-AR-08-006
 Production First Article Testing Readiness and Quality



Critical Deliverables

Other requirements in the SOW are also critical to the FSS program’s success. For
example, three key deliverables―acceptable PPBTDP,6 MDSS,7 and PCS8―are currently
behind schedule. Recent projections indicate that the complete PPBTDP will not be
available until summer 2008 because source data is unavailable for the ITC. In addition,
the initial release of the MDSS and PCS may not be available for the start of production
FAT because the Postal Service and the supplier have not agreed on the requirements
definition for the first releases.

Delaying the PPBTDP and MDSS will postpone the release of the FSS Maintenance
Handbook. The handbook is needed for training development and is the primary
reference material that supports maintenance training. In addition, without a fully
functional MDSS, the Postal Service may not be able to effectively maintain the FSS
equipment and may need on-site support from the supplier. If this occurs, the Postal
Service estimates that 50 on-site supplier technicians will be required to support early FSS
deployments. Lastly, if PCS is delayed at the start of production, on-site personnel will
have less opportunity to learn the PCS system before FSS machines are installed. PCS
allows the test sites to balance incoming flat mail volume on multiple FSS machines.

Production Quality Control

The FSS production quality control needs improvement to ensure that systems provide
reliable and consistent performance. During our audit, we performed a walk-through
inspection of on-site assembled parts and reviewed the material open item log dated
March 12, 2008. The item log documented the following issues:

    •    Missing parts.
    •    Assemblies built to unapproved (redline) drawings.
    •    Assemblies not always tested before shipment from the supplier’s subcontractor.

In addition, changes to system drawings did not always incorporate current revision
notices (RN).9 As of February 22, 2008, 958 RNs were not incorporated into the most
current drawing, and 397 of the open RNs were at least 3 months old. These issues

6
  The PPBTDP must define the complete system as supplied, from contract award leading up to the production stage.
The PPBTDP must reflect, through updates, all supplier-prepared change documentation incorporated into the
preliminary production system.
7
  The MDSS allows the results of all diagnostic and troubleshooting utilities to be activated, deactivated, and displayed.
The MDSS includes performance monitoring and diagnostics that gather and analyze performance indicators and
provide warnings and error messages automatically and in real time. MDSS also supports condition-based maintenance
and schedules preventive and corrective maintenance.
8
  The PCS is a decision support and real-time planning tool that gives managers, supervisors, and planners the data and
functionality they need to efficiently monitor, schedule, and manage the daily FSS operation. PCS also provides forecast
values for throughput and incoming mail volume and performs workload planning, machine staffing, and data
management.
9
  Revision notices describe the change and state whether the equipment was effective.




                                                            7
Flats Sequencing System:                                                      DA-AR-08-006
 Production First Article Testing Readiness and Quality


occurred because the supplier did not follow the quality plan and configuration control
management process.

When effective production quality controls are not in place, there is an increased risk that
the Postal Service will accept production machines that do not consistently meet reliability
and maintainability standards. Also, without an effective configuration control process, the
first five production machines may not be built to the same drawing configuration.




                                                      8
Flats Sequencing System:                                     DA-AR-08-006
 Production First Article Testing Readiness and Quality


                         APPENDIX C: MANAGEMENT’S COMMENTS




                                                      9
Flats Sequencing System:                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality




                                                      10
Flats Sequencing System:                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality




                                                      11
Flats Sequencing System:                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality




                                                      12
Flats Sequencing System:                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality




                                                      13
Flats Sequencing System:                                   DA-AR-08-006
 Production First Article Testing Readiness and Quality




                                                      14
